UNITED STATES OF AMERICA

.

.~.~

FEDERAL TRADE COMMISSION
~

~".

600 PENNSYLVANIA

."

A VENUE, NW

WASHINGTON,DC 20580

Division of Enforcement
Bureau of Consumer Protection

March

18,

2002

Mr. Carlos Moore
Executive Vice President
American Textile Manufacturers Institute
1130 Connecticut Ave., NW, Suite 1200
Washington, DC 20036-3954
Re: ReQuestfor FTC Staff QRinion concerning Thread Count
Dear Mr. Moore:
This is in reply to your letter requesting a Commission staff opinion regarding the
appropriate method for determining fabric "thread count," or yams per square inch, in textile
products such as bed sheetsand pillow cases. You state that some companies are marketing
bedding products with extremely high yam or thread counts, achieved by counting yams within a
ply as individual yams, thus dramatically and deceptively increasing the number of yams in a
square inch of fabric. You make specific reference to the American Society for Testing and
Materials (ASTM) test method D 3775, titled "Standard Test Method for Fabric Count of Woven
Fabric," and you express the view that this method is the long-accepted industry standard for
determining thread count.
Under the Commission's Rules of Practice, 16 C.F.R. ยง 1.I(a), the Commission (and,
under delegated authority, its staff) may render an advisory opinion with respectto a prospective
cburse of conduct proposed by the requesting party:
ยง 1.1 Policy.
(a) Any person, partnership, or corporation may requestadvice
from the Commission with respectto a course of action which the
requesting party proposes to pursue.
In this instance, A TMI is not seeking advice with respectto a course of conduct it proposes to
pursue. Rather, A TMI is seeking an opinion as to whether certain representationsmade by some
industry members with regard to thread count might be considered deceptive under the FTC Act.
As such, the question is not appropriate for issuanceof a staff advisory opinion.

Mr. Carlos Moore
page 2

,
Although we are unable to provide you with a staff advisory opinion about whether
counting yarns within a ply as individual yarns would be deceptive, we can advise you as to how
the Commission staff generally would analyze such claims. A thread count claim, like other
objective, material claims about a product, must be supported by a "reasonablebasis." In
determining what constitutes a reasonablebasis for claims, we would consider what experts in
the field believe is appropriate, including whether there are relevant consensusbased test
procedures, such as an ASTM test procedure, or other widely acceptedindustry practices that
apply to the matter. If so, we would give suchprocedures or practices great weight in
determining whether:the advertiserhas met its substantiationburden. In other related contexts,
the Commission has encouragedthe use of ASTM tests. SeePressRelease,FTC Announces
Actions on Wool Labeling Rules, dated March 8, 1994 (copy attached)("In its clarification of the
procedure used for testing the fiber content of wool products, the FTC said the industry members
should, where possible, use procedures established by the American Society for Testing and
Materials (ASTM).")
I also wish to bring to your attention a closing letter that is on the public record
.concerning
an investigation of possibly deceptive practices in connection with the packaging of
down comforters. In that instance, the staff determined that no further Commission action was
warranted when the company notified the staff that it was changing its package product
description from "760 White Goose Down" to "finely woven 380 2-ply fabric." (copy attached).
Pursuant to Section 1.4 of the Commission's Rules of Practice and Procedure, 16 C.F.R.
ยง 1.4, your letter, together with this response,will be placed on the public record.
I hope you will find the above information helpful.
Sincerely yours,

~U.L~

l> .Ntl<:.-<..4;

Elaine D. Kolish
Associate Director for Enforcement

Enclosures

-

FederalTrade Commission Washington, D.C. 20580
~
IMMEDIATERRT.RASE:March 8. 1984
FIt= A~ES
(If

M)()L

ACr I (2fS

t-A"RI~ 1M; BOLES

The Federal
Trade Commission has decided,
after
reviewing
public
comments,
not to change its rule requiring
a label
stating
the minimum wool content
on wool products.
The Commission also
issued a clarification
of the procedures
it uses for testing
wool
products
to determine
their
fiber
content.
The FTC enforces
wool-labeling
rules
under the Wool Products
Labeling
Act.
In April
1983, the FTC sought comments on whether
it should
amend its
rules
to allow labels
to disclose
the average amount,
rather
than the minimum amount, of wool in fabrics
that contain
recycled
wool or wool blend products.
Using the average amount
might provide
consumers more accurate
information,
the FTC said,
but using the minimum assures
that conswners will
receive
at
least
the amount of wool on the label.
However,
after
reviewing
the comments, the Commission
decided
not to amend the rule,
because there was no evidence
the record
to support
the change.

on

In its clarification
of the procedure
used for testing
the
fiber
content
of wool products,
the FTC said the industry
members
should,
where possible,
use procedures
established
by the
American
Society
for Testing
and Materials
(ASTM).
The test should be made on an "oven-dry
basis,"
"commercial
moisture
regain"
added to determine
the
fiber
content
of a wool product.

with
quantitive

The ASTM defines
oven-dry
basis as "the condition
of a
material
that has been heated under prescribed
conditions
of
temperature
and humidity
until
there
is no further
significant
change in its mass."
Commercial
moisture
regain is "an arbitrary
value
to be used with the oven-dry
weight"
when calculating
"the
weight

".of a specific

component

in

the

analysis

of

fiber

blends."

Copies of the Federal
Register
notice
on the minimum wool
content
rulemaking
decision
are available
from the FTC's Public
Reference
Branch,
Roam 130, 6th st. and Pennsylvania
Ave. N.W.,
Washington,
D.C. 20580; 202-523-3598;
TTY 202-523-3638.
News
media copies
are available
from the Office
of Public
Affairs,
Room 496, same address;
202-523-1892.
# # #

MEDIA CONTACT:

Susan Ticknor,

Office

of Public

Affairs,

202-523-1892

STAFF-CONTACT:

Jerry

McDonald,

Bureau

of Conswner

202-376-2800

(labels)

Earl Johnson,
202-376-2891

Bureau of Conswner
(test
methods)

Protection,

Protection,

." 'IC

.

.~
"".
Division

UNITED STATESOF AMERICA

j'~~

FEDERAL TRADE COMMISSION

~
.'1:-

WASHINGTON, D.C. 20580

of Enforcement

Bureau of Consumer Protection

April

8, 1996

Jeffrey
Goldman, President
California
Feather & Down Corporation
11842 S. Alameda St.
Lynwood, CA 90262
Re:

California

Feather

& Down Corporation,

9523373

Dear Mr. Goldman:
The Commission has conducted an investigation
involving
your
company's possible
violation
of the Federal Trade Commission Act
through the use of unfair
acts or deceptive
acts or practices
in
connection
with the packaging of down comforters.
By letter
dated March 12, 1996, Mr. N. Frank Wiggins stated
that your company is removing the reference
to "760" from the
packaging and labeling
of your "White Knights
760 White Goose
Down Comforter."
Further,
Mr. Wiggins'
August 12, 1995, letter
stated that the company had revised
the text of the packaging for
this product
to say that the White Knights 760 White Goose Down
Comforter
contains
"finely
woven 380 2-ply fabric.
..."
The
former packaging had stated
"finely
woven 760 threads per sq.
.
"
lnc h Upon further
review of this matter,
it now appears that no
further
action
is warranted
by the Commission at this time.
Accordingly,
the investigation
has been closed.
This action is
not to be construed
as a determination
that a violation
has not
occurred,
just as the pendency of an investigation
should not be
construed
as a determination
that a violation
has occurred.
The
Commission reserves
the right
to take such further
action as the
public
interest
may require.
Sincerely,
C---l.La..l-l'&... ~ ~~1C_{-<...a-\"
Elaine D. Kolish
Associate
Director
cc:

N. Frank Wiggins,
Esq.
Venable, Baetjer,
Howard & Civiletti,
1201 New York Avenue, NW, Suite 1000
Washington,
DC 20005-3917

LLP

FEDERAL
TRA.DE
COMMISSION

~

A
AMERICAN
MANUFACTURERS

_t)IVISION ENFORCEMENT
TEXTILE
INSTITUTE

January 31, 2002

Mr. Steve Ecklund
Federal Trade Commission
Division of Enforcement
Washington, DC 20580

Re:

Request for FTC Staff
Opinion on Yarn Count

Dear Mr. Ecklund:
It has come to our attention again that. some companies are marketing bed
sheets and pillowcases to U.S. consumers where extremely high yarn or thread
counts are claimed -some as high as 1000 count. We believe these products
are mislabeled, creating deceptive information for the consumer.
Labeling these products based on a count that includes each ply in plied yarns
deceives the customer into believing that bedding products with higher counts
are better when, in fact, they might be inferior because of the method used to
determine the count. We wrote to the Commission regarding this same issue on
February 24, 1997 (copy enclosed) and provided a fabric sample and
independent lab report verifying our position.
In many cases, these extremely high counts are achieved by counting yams
within a ply as individual yams, thus dramatically increasing the number of yarns
in a square inch of fabric. A plied yarn is one in which two or more yarns are
twisted together to form a single strand.
ATMI believes this method of labeling products based on counting each
individual yarn in plies to be a deceptive practice, which misleads the American

.

1130 Connecticut Ave., NW. Suite 1200. Washington, DC 20036-3954
202-862-0500 .fax: 202-862-0570. http://www.atmi.org
fax on demand: 202-862-0572

-

,

public into making decisions to purchase items, based on false and misleading
information.
ASTM method D 3775-96 (Standard Test Method for Fabric Count of Woven
Fabric) is the long-accepted industry standard for determining count. This
method has been in use in this country for many years and serves as the
industry's standard way to report the count of many woven textile fabrics,
including sheeting. It is based on the number of yarns in the warp direction and
filling direction, regardless of ply, and has become an important parameter used
by consumers to judge the quality of sheeting products, since the higher the
count, the more luxurious the product.
ATMI believes that any information provided to the consumer should be true and
correct so as not to be deceptive or mis-leading. We believe that plied yarns are
properly counted as only one yarn. For example, a fabric containing 250
individual four ply yarns in a square inch would be described as a "250 thread
count fabric, even though each thread or yarn contained four plies twisted
together." It would be false and mis-leading to describe this as a 1000 thread
count product.
ATMI requests a staff opinion from the Federal Trade Commission on this issue.
We believe that manufacturers, importers and retailers of bed sheets should rely
on the ASTM D3775-96 standard test method to determine count.

a:;;el#

~

Carlos Moore
Executive Vice President

Enclosure

